                                                                                               1
                                              NATIONAL SCIENCE FOUNDATION                      1
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: 1-03-09-0042                                                                Page 1 of 1



     An internal review of the Government Travel Credit Card Program by the National Science
     Foundation (NSF) Office of Inspector General (OIG) revealed the possibility of unauthoriLed use
                                                                                              1
     of the government travel credit card.

                                         '
     A review of the subject employee's travel credit card statement transaction reports, during the
     period 03/21/02 through 12/23/02, reflected multiple cash withdrawals and other charges,
     totaling in excess of $3,000.00, which did not appear to be associated with official government
     travel.
                                                                                                          I
     During OIG's inteniew of the subject employee, she acknowledged unauthorized use of the
     government travel credit card, in that she made $3,253.00 in cash withdrawals and other charges
     for her personal use. The subject employee stated that she thought she was allowed to use the
     government travel credit card for personal use as long as she paid the credit card bill. The 4avel
     credit card statements indicated that as of January 16,2003, subject employee's government
     travel credit card account was paid in full.

     NSF/OIG referred this case to the United States Attorney's Office, Eastern District of Virginia
     who declined prosecution in lieu of agency administrative action.                                    I
     OIGYsreferral to NSF resulted in the subject employee receiving counseling from her supervisor.
     The confirmation of counseling is attached and constitutes part of this closeout document.
                                                                                                          1
                                                                                                          I

     Accordingly, this case is closed
                                                                                                          I




                                                                                                              1
                                                                                                              i


                                                                                                              I
     1                                                                                                        I



-
                                                                                                              I
